                                                                        Office               Hotline

  Office of Inspector General                                           202.692.2900
                                                                        peacecorps.gov/OIG
                                                                        OIG Reports
                                                                                             202.692.2915 800.233.5874
                                                                                             Online Contact Form
                                                                                             OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Deputy Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          April 29, 2013

Subject:       Final Report on the Program Evaluation of Peace Corps/Colombia
               (IG-13-03-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Colombia.

Management concurred with all 10 recommendations. We closed eight recommendations (3-10)
based on a review of corrective actions and supporting documentation. Recommendations 1 and
2 will remain open pending confirmation from the chief compliance officer that the
documentation identified in management’s response and in our comments in Appendix C has
been received.

In its response, management described actions it is taking or intends to take to address the issues
that prompted each of our recommendations. We wish to note that in closing recommendations,
we are not certifying that the agency has taken these actions or that we have reviewed their
effect. Certifying compliance and verifying effectiveness are management’s responsibilities.

Please respond with documentation to close recommendation 2 within 90 days of receipt of this
memorandum. We will review action taken to close recommendation 1 at the time that Peace
Corps/Colombia obtains and documents the approval to develop new sites outside of major urban
areas.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904 or to Senior Evaluator Jerry Black at 202.692.2912.
Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director for Global Operations
        Nina Favor, Acting Regional Director, Inter-America and the Pacific Operations
        Brenda Goodman, Deputy Associate Director, Office of Health Services
        Ed Hobson, Associate Director for Safety and Security
        Daryl Sink, Chief, Overseas Operations, Safety and Security
Howard Lyon, Chief of Operations Advisor/Expert Consultant, IAP
Amy Johnson, Chief of Programming and Training, IAP
George Baldino, Country Director
Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer
Colombia Desk
         Peace Corps
         Office of Inspector General




Peace Corps Response Volunteer Bob Arias with counterpart and her daughter




                          Flag of Colombia

         Final Program Evaluation Report:
               Peace Corps/Colombia
                            IG-13-03-E

                                                      April 2013
                                    EXECUTIVE SUMMARY
In 1961 Colombia was one of the first countries to welcome Peace Corps Volunteers. More than
4,600 Volunteers served in Colombia until the program closed in 1981 for security reasons. In
2009 former Colombian President Álvaro Uribe invited the Peace Corps to return, and in
September of 2010 Peace Corps/Colombia (hereafter, “the post”) re-opened with nine Peace
Corps Response Volunteers (PCRVs) 1. More than eighty Volunteers, including 29 PCRVs, have
served in Colombia since the program re-opened. Most Volunteers in Colombia work in the
Teaching English for Livelihoods (TEL) project. PCRVs are involved in youth development as
well as disaster relief and recovery efforts. At the time of the evaluation there were 24
Volunteers, including five PCRVs.

The Peace Corps carefully managed the re-opening of operations in Colombia. Former Peace
Corps Director Aaron S. Williams sent assessment teams to Colombia to determine whether or
not conditions in Colombia were suitable for Volunteers. The agency closely followed the
recommendations that its assessment teams made concerning programmatic opportunities,
geographic boundaries for operations, and safety and security precautions. The safety and
security program is thorough, with sound oversight. Programming is anchored in the Colombian
government‟s initiative to make public schools bilingual, and has been well received. PCRVs
and dedicated staff helped to get the program off to a good start despite a compressed reentry
phase and early staffing and logistical challenges.

In general, Volunteers indicated that they received good support from the staff. The TEL project
has been well designed. TEL Volunteers had ample opportunity to engage with Colombian
teachers and students, and most were positive concerning their counterpart relations and site
placements. The PCRVs were very pleased with their job assignments and counterpart relations.
In addition, the post‟s training program was generally well regarded by Volunteers. Post had
made important adjustments to Volunteer training based on feedback from the first trainee group,
training staff, and experience with supporting Volunteers. Staff morale was generally high, and
both Volunteers and staff maintained a sense of optimism about the future of the program.

The evaluation uncovered some areas for improvement. The most significant challenge facing
the post is the concentration of Volunteers in three major urban areas along the Caribbean coast.
Due to security concerns, the post has been unable to place a sufficient number of Volunteers in
smaller communities outside these major urban areas. We found that the Volunteers placed in
these densely populated barrios (urban neighborhoods) had difficulty integrating, faced frequent
sexual harassment, experienced high levels of stress, and were exposed to a greater risk of urban
crime such as muggings and theft. Post leadership made some progress in obtaining U.S.
Embassy approval to place Volunteers in smaller communities along the Caribbean coast, but
additional assessments and discussion is warranted given the nature of the Peace Corps‟ safety
and security model and the documented risks to Volunteers.



1
  Peace Corps Response provides qualified professionals the opportunity to undertake short-term assignments in
various programs around the world.


Final Program Evaluation Report: Peace Corps/Colombia                                                            i
Volunteers also frequently struggled to adjust to living with a host family, and several had
switched their host family. Managing host family changes had become a source of frustration for
both Volunteers and staff. Some Volunteers lacked the necessary Spanish and cross-cultural
skills and attitudes that would make a host family stay viable and productive, and post staff and
leadership was focused on how to improve pre-service training and trainee assessment, to ensure
that Volunteers swear-in with sufficient language and cultural skills. Also, we found that the
TEL program manager had not been providing Volunteers with timely or useful feedback on
their quarterly reports, that the post lacked sufficient office space, and that its medical evacuation
plan had incomplete components.

Our report contains 10 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Colombia                                               ii
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ......................................................................................................................... i

HOST C OUNTRY BACKGROUND .......................................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND ........................................................................................... 2

EVALUATION R ESULTS ........................................................................................................................ 2

          MANAGEMENT CONTROLS ............................................................................................................................... 2

          VOLUNTEER SUPPORT .................................................................................................................................... 13

          PROGRAMMING .............................................................................................................................................. 19

          TRAINING ....................................................................................................................................................... 22


OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................................................... 26

INTERVIEWS CONDUCTED ................................................................................................................. 27

LIST OF RECOMMENDATIONS ........................................................................................................... 30

APPENDIX A: ACRONYMS AND GLOSSARY OF SPANISH TERMS .................................................... 31

APPENDIX B: AGENCY’ S RESPONSE TO THE PRELIMINARY REPORT ............................................. 32

APPENDIX C: OIG COMMENTS......................................................................................................... 44

APPENDIX D: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ................................ 46
                             HOST COUNTRY BACKGROUND
Colombia is located in northern South America and has a population of over 46 million people,
making it the third most populous country in Latin America. Seventy-five percent of Colombians
live in urban or semi-urban areas. The official language is Spanish. Colombia is as big as the
states of California and Texas put together. Its diverse natural environment includes large coral
reefs, coastal areas, wetlands, mountain chains, grasslands, highlands and Amazonian rainforest.

Colombia‟s government is a constitutional republic. Democratically-elected President Juan
Manuel Santos began his four-year term on August 7, 2010. The country is divided into 32
administrative departments, each with its own governor and popularly-elected local
representatives.

Colombia‟s has the world‟s 29 th largest economy, which has experienced a decade of relatively
strong economic growth in terms of its gross domestic product (GDP). Average GDP per capita
was approximately $10,100 in 2011, ranking 109 out of over 220 countries. Despite recent years
of strong economic growth, unemployment and poverty remain high in Colombia. Income
inequality in Colombia is severe. Colombia‟s income GINI coefficient of 58.5 is the fourth
highest in the world. 2 Colombia‟s inequality-adjusted human development index (IHDI) places
the country at a low level of human development. 3

Left-wing guerrillas have been fighting for decades against the government of Colombia and
right-wing paramilitary groups. These armed groups include organizations that remain on the
U.S. Department of State‟s list of foreign terrorist organizations (FTOs): the Revolutionary
Armed Forces of Colombia (FARC), the National Liberation Army (ELN), and the United Self
Defense Forces of Colombia (AUC). Thousands of FARC, ELN, AUC members and others
demobilized after a December 2003 peace agreement. However, many of their former members
have since joined or organized their own bandas criminales (criminal gangs) known as
BACRIMs. The activities of various BACRIMs currently represent, according to the U.S.
Department of State, “one of Colombia‟s most serious security challenges.” Colombian FTOs
and BACRIMs are involved in narco-trafficking, among other criminal activities. Colombia
remains one of the world‟s largest producers of cocaine, and the major source of cocaine seized
in the United States.




2
  The income GINI coefficient measures the degree of deviation of household income distribution away from perfect
equality: a value of 0 indicates perfect equality (all households have the same share of national income), and a value
of 100 indicates perfect inequality (one household has all the national income). GINI coefficients near or above 0.5
represent „extreme‟ inequality according to the International Labour Office.
3
  The Inequality-adjusted Human Development Index (IHDI) adjusts the Human Development Index (HDI) for
inequality. The IHDI discounts each component of the HDI (income, education, health) for the effects of inequality.
The IHDI is the actual level of human development (accounting for this inequality), while the HDI can be viewed as
an index of potential human development that could be achieved if there were no inequality.



Final Program Evaluation Report: Peace Corps/Colombia                                                                1
                     PEACE CORPS PROGRAM BACKGROUND
The Peace Corps first opened the program in Colombia in 1961, and more than 4,600 Volunteers
served in Colombia until 1981 when the program was closed due to safety and security concerns.
In February of 2009 the President of Colombia invited Peace Corps to return. On May 11, 2010
Peace Corps Director Aaron S. Williams4 and Colombia‟s minister of foreign affairs signed an
agreement to re-establish the Peace Corps in Colombia. Shortly thereafter staff began preparing
the post to receive Volunteers, and in September of 2010 a group of nine PCRVs arrived. Four
months later another group of PCRVs arrived, and in the fall of 2011 the first group of two-year
Volunteers began their service. Since the post re-opened in 2010, over eighty Volunteers
(including almost 30 PCRVs) have served in the country.

Volunteers in Colombia work in the education sector in a project entitled teaching English for
livelihoods (TEL). The TEL project supports the Colombian Ministry of Education‟s initiative to
make all public schools fully bilingual by 2019. Volunteers work with English teachers in
Colombian primary, secondary and teacher-training schools. Volunteers co-plan and co-teach
with Colombian English teachers in order to improve lesson planning and teaching abilities in
the classroom. Volunteers also deliver English workshops and create English teaching materials
in collaboration with Colombian teachers. Outside the classroom Volunteers provide English
classes for people in their communities, and organize other educational and youth development
activities for in-school and out-of-school youth.

At the time of fieldwork there were 24 Volunteers serving in Colombia, including 20 two-year
Volunteers, three PCRVs working with youth in Barranquilla and one for disaster relief and
recovery in a flood-affected region of the Atlántico department. An additional PCRV and 30
trainees arrived in Colombia just after our field work was conducted, bringing the total Volunteer
and trainee population to 55. The post‟s FY 2012 budget was $1.26 million. 5


                                      EVALUATION RESULTS
MANAGEMENT CONTROLS

One objective of our country program evaluation is to assess the extent to which the post has in
place sufficient resources, support from the agency, and management controls to function
effectively. We assessed a number of factors, including staffing; staff development; the office
work environment; collecting and reporting performance data; and the post‟s strategic planning
and budgeting, including planning involved with the re-opening of the post in 2010.




4 The current Acting Director of the Peace Corps is Carolyn Hessler-Radelet.
5
  This amount does not include the salaries, benefits, and related cost of U.S. direct hires assigned to the post and
other costs the agency has determined should be centrally-budgeted.


Final Program Evaluation Report: Peace Corps/Colombia                                                                   2
In reviewing staff performance appraisals, the post‟s relationship with headquarters, staff
development, file maintenance, and strategic planning and budgeting, we found no significant
areas of concern that would necessitate action by the post. From our interviews we determined
that morale and professionalism among staff was generally high. Files were well organized and
most documents we requested were quickly made available. Strategic planning and budgeting
documents had been thoroughly developed, and staff did not report problems with obtaining
resources necessary to carry out post operations. Several staff had recently participated in
training and professional development opportunities.

In general the Peace Corps effectively managed the re-opening of its program in Colombia. The
agency assessed the security conditions in Colombia, and then carefully adhered to the security-
related recommendations in the assessment teams‟ reports. The assessment teams, collaborating
with Colombian officials, identified programming opportunities that met the Colombian
government‟s education priorities and set clear expectations regarding Volunteer recruitment.
These assessments, in the hands of an experienced and capable management team in Colombia,
provided a solid foundation for the first few years of operations.

                                Figure 1. Peace Corps Reentry Timeline
   2/2009: President                                              6/2010: CD
  Uribe invited Peace                    1/2010:                   and other
  Corps to return to                   2nd re-entry                 staff in
       Colombia                        assessment                  Colombia




                        11/2009: 1st                   5/2010:                   9/2010:
                          re-entry                     country                 1st group of
                        assessment                    agreement                  PCRVs
                                                        signed

The safety and security program in place was thoroughly documented. Programming is anchored
in Colombia‟s bilingualism initiative and has been well received. Starting the program with
RPCVs helped get the program off to a good start in a short period of time despite some early
administrative, logistical, and unforeseen challenges related to hiring local staff. In addition to
the highly capable and experienced management team sent to open the post Peace Corps
headquarters sent other employees on temporary duty assignments to assist pre-service training
and during the search for a full-time doctor to serve as the Peace Corps medical officer (PCMO)
for the post.

The post has been unable to place a sufficient number of Volunteers in small communities
outside the major urban areas of Cartagena, Barranquilla and Santa Marta.

In response to former President Uribe‟s invitation, former Director Williams twice sent teams to
Colombia to assess the viability of re-starting a program. The questions that the first assessment
team sought to answer in November of 2009 concerned whether or not, and where, the Peace
Corps could safely operate within Colombia‟s complex security environment. The team‟s




Final Program Evaluation Report: Peace Corps/Colombia                                                3
summary report 6 identified the area along Colombia‟s Caribbean coast as being “the most
favorable for providing a safe and productive PC [Peace Corps] experience.” The Peace Corps
safety and security officer (PCSSO) described this area, almost 300 miles from end to end, along
the Caribbean coast:

           An initial safe operating location for Peace Corps Volunteers would be a specific narrow area along the
           Caribbean coast encompassing the area of Sucre north of Sincelejo, Cartagena, Barranquilla, Santa Marta,
           and La Guajira as far as Riohacha. Placements must be confined to carefully selected urban and peri-urban 7
           areas that are determined at the outset of the site development process.

The PCSSO‟s report also identified the coffee-growing region near Manizales and Pereira (west
of Bogota and south of Medellin) as being a “secure and stable area where Peace Corps could
comfortably operate.” According to the agency‟s security assessment report from 2009, the U.S.
Embassy‟s regional security officer (RSO) at the time expressed concerns about the safety of
Peace Corps Volunteers in Colombia. The report paraphrased the RSO‟s perspective:

           There is a high probability of assaults, including the real concern that PCVs would be killed or kidnapped.
           The RSO is particularly concerned about PCVs [Peace Corps Volunteers] placed in rural areas or urban
           barrios were [sic] street crime is profuse.

In January 2010 a second assessment was conducted, which re-affirmed and elaborated on the
first assessment report‟s main findings and recommendations, including that the Peace Corps
could operate safely “within specific geographic parameters” along the northern Caribbean coast.
As part of this second security assessment, the PCSSO met again with the RSO to review the
security recommendations arrived at a few months earlier, and to outline a set of restrictions on
staff and Volunteer travel within Colombia: “The program must take measures unique to the IAP
Region in order to mitigate the identified risk of assaults or kidnapping by organized and semi-
organized criminal elements.”

Due to these security concerns the Peace Corps has not been able to operate freely within a “safe
operating location” along Colombia‟s Caribbean coast. With few exceptions, the Peace Corps
has confined its placement of Volunteers to three large urban areas: Cartagena (in the Bolívar
department); Barranquilla (in the Atlántico department); and Santa Marta (in the Magdalena
department). At the time of fieldwork, 21 of 24 Volunteers were in these three large cities. After
30 trainees swore in as Volunteers in mid-November 2012, 78 percent of Volunteers (42 out of
54) had urban sites. No Volunteers since the 2010 re-entry have been placed in the “coffee
triangle” area west of Bogota identified in the initial PCSSO report. Five Volunteers had been
placed in peri-urban communities near the metropolitan areas of Cartagena and Santa Marta, and
seven Volunteers were in small towns in rural areas of the Atlántico, Magdalena and Bolívar
departments. Almost half (26 of 54) the active Volunteers in Colombia in January 2013 were in
the city of Barranquilla.




6
    Peace Corps Viability Assessment: Colombia. November 14-24, 2009
7
    A “peri-urban” area is immediately surrounding or outside of a city.


Final Program Evaluation Report: Peace Corps/Colombia                                                                    4
                                            Figure 2. Colombia

                                                                                                Area of Colombia where Peace
                                                                                                Corps operates




               Figure 3. Approved Sites for Peace Corps Volunteers in Colombia
                                                                         Santa Marta: Nine urban sites and
                                                                         one peri-urban site. 1 rural site in
                                                                         Magdalena department

                                                                         Barranquilla: Twenty-six urban sites


                                                                         Atlántico department: Five rural
                                                                         sites

                                                                         Cartagena: Seven urban sites; four
                                                                         peri-urban sites. One rural site in
                                                                         Bolivar department

Source: Peace Corps/Colombia Volunteer information database application as of January 4, 2013

The heavy concentration of Volunteers in three urban centers, especially in Barranquilla, rather
than more broadly throughout communities along the Caribbean coast has been driven by the
serious concerns held by the current U.S. ambassador regarding the security risks in rural areas


Final Program Evaluation Report: Peace Corps/Colombia                                                           5
of Colombia. On-going security challenges affect areas where Peace Corps operates. In early
January of 2012, a few days before the first group of two year Volunteers were to arrive at their
sites in Santa Marta, a BACRIM called “the Urabenos” threatened the city‟s business proprietors
and closed the downtown‟s market area for two days before the Colombian government
intervened. This is an example of the on-going safety and security risks and challenges that
characterizes the operating environment for Peace Corps and other U.S. government or
international agencies in Colombia, where sections of relatively safe cities like Santa Marta can
be paralyzed by the activities of BACRIMs or FTOs. Because of these concerns, security experts
at the U.S. Embassy review, and then the ambassador must approve each new site before a
Volunteer can be placed there.

The concentration of Volunteers within Barranquilla, Santa Marta, and Cartagena has had a
range of negative unintended effects. These effects include: elevated levels of stress in the
Volunteer population; frequent sexual harassment; minimal community integration; and elevated
risk of urban-based crime. Because these effects trace back principally to factors associated with
urban barrio living they will be treated in this section of the report rather than separately under
Volunteer Support, though each effect does have implications for Volunteer support.

Elevated Stress Levels. Volunteers in Colombian cities have been experiencing higher than
average levels of stress. Volunteers expressed elevated stress levels during our interviews.
Volunteers also reported high levels of stress in response to agency-wide surveys conducted in
2011 and 2012. Staff in Colombia pointed out that the urban setting, and the “hyper-security
situation” in Colombia has placed all Volunteers and staff under a constant level of stress.
Volunteers we interviewed spoke frequently about the difficulties of being in such an urban
setting:

            “In training, someone gave a charla 8 about walking around and introducing yourself to people--but you
            can't do that in this city. It's not safe, especially for a foreign woman.”

            “Walking around near my house there are some stretches, where past 8 p.m. at night, I do not feel very safe.
            I do it but am on edge. People from my family have been attacked near my house. There is a park four
            blocks away where people were shot.”

            “Living in a big city is very hard. Something that frustrates me is that the office does not know what it is
            like to live in these barrios. I am not sure the staff understands. My neighborhood is the loudest I have ever
            encountered in the city. There are some nights when I can't sleep due to the noise.”

            “I‟m sad about not having a community like I was expecting—a small community. I have been told not to
            talk to others on the street—my neighbors recommended that I not interact with others in the community. I
            hate cities and am disappointed by the site.”

Indications of high levels of stress for Volunteers in Colombia include:

Thirty-five percent of Volunteers reported that their personal safety was a source of either
“moderate” or “considerable” stress, compared to just 19 percent of Volunteers globally (2012
All Volunteer Survey (AVS) data).


8
    A „charla‟ is a talk, or a presentation.


Final Program Evaluation Report: Peace Corps/Colombia                                                                    6
                                  Table 1. Personal Safety as Source of Stress
                        Volunteers citing personal safety as source of moderate or higher
                        levels of stress
            50%
            45%                                                                              43%
            40%         35%
            35%
                                                                              29%
            30%                                        25%
            25%
                                       19%                                                                 19%
            20%                                                  17%
            15%
            10%
             5%
             0%
                     Colombia Guya na              Ja ma ica    Eastern     El    Guatemala All Peace
                     Volunteers                                Caribbean Salvador             Corps
                                                                                            Volunteers
          Source: OIG analysis of 2012 AVS data

PCRVs in Colombia who served in 2010 and 2011 reported experiencing relatively high levels of
stress as well: 53 percent reported that safety and security issues caused them moderate to
considerable stress, compared to just 25 percent at other posts (2011 Peace Corps Response
survey data).

Eighty-five percent of Volunteers cited their counterpart or other community partner as a source
of moderate or higher levels of stress, compared to 51 percent of Volunteers globally. And
relations with counterparts or community partners caused one in four Volunteers in Colombia
exceptional stress, compared to one in 20 Volunteers worldwide (2012 AVS data); Ninety
percent of Volunteers in Colombia reported that their job caused them moderate or higher levels
of stress, compared to 65 percent of Volunteers globally (2012 AVS data).

        Table 2. Counterpart Stress                                         Table 3. Job Stress
       Counterparts/community partners as sources of                  Primary assignment as source of moderate or higher
       moderate or higher levels of stress                            levels of stress
100%                                                           100%           90%
 90%           85%                                              90%
 80%                                                            80%
 70%                                                            70%                                    65%
 60%                                    51%                     60%
 50%                                                            50%
 40%                                                            40%
 30%                                                            30%
 20%                                                            20%
 10%                                                            10%
  0%                                                             0%
        Colombia Volunteers   All Peace Corps Volunteers               Colombia Volunteers   All Peace Corps Volunteers

                                      Source: OIG analysis of 2012 AVS data




Final Program Evaluation Report: Peace Corps/Colombia                                                                      7
Interacting with the Peace Corps staff in Colombia causes 30 percent of Volunteers
“considerable” or “exceptional” stress, compared to nine percent of all Volunteers (2012 AVS
data). Trying to stay healthy causes one in four Volunteers “considerable” or “exceptional”
stress, compared to nine percent of all Volunteers (2012 AVS data).

85 percent of Volunteers in Colombia reported that the local diet limited their ability to stay
healthy, compared to 55 percent of Volunteers globally (2012 AVS data).

                                     Table 4. Limits of Local Diet
                            Local diet limits ability to maintain physical health
          90%      85%
                                                                  78%
          80%
          70%
          60%                                                                 54%       55%
          50%
          40%                  35%
                                           31%          32%
          30%
          20%
          10%
           0%
                 Colombia     Guya na    Ja ma ica    Ea stern El SalvadorGua tema la    All
                                                     Caribbean                        Volunteers
                Source: OIG analysis of 2012 AVS data

Half of the Volunteers in Colombia cited their host family as a source of moderate or higher
levels of stress and 20 percent said their host family arrangement was exceptionally stressful.
Just 24 percent of Volunteers worldwide experience moderate or higher levels of stress from
their host family, and just three percent rated it as exceptionally stressful (2012 AVS data).

Frequent Sexual Harassment. Contributing to the daily stresses Volunteers experience in
Colombia is the reality of sexual harassment. As the Volunteer Welcome Book warns, “You
should be prepared for unwanted attention from Colombian men if you are an American
woman.” Volunteers we interviewed reported being sexually harassed, and in their responses to
the 2012 AVS Volunteers reported that sexual harassment was a daily stressor: 60 percent said
they were harassed at least once a day and 40 percent said they were harassed multiple times
each day (Table Five). By contrast, just 20 percent of Volunteers worldwide reported being
harassed as frequently. According to 2012 AVS data, Volunteer harassment in Colombia comes
from strangers (93 percent), Colombian counterparts and co-workers (71 percent) and other
community members (64 percent). By comparison, Volunteers worldwide typically experience
low levels of harassment from their counterparts or co-workers (25 percent) (Table Six).

The agency‟s counselors we spoke to confirmed that the harassment data from Colombia was,
“very unusual. That would be very stressful, obviously. Because they are getting it from


Final Program Evaluation Report: Peace Corps/Colombia                                              8
strangers on the street and also from people they know at their worksites.” During our fieldwork
we directly witnessed students making rude gestures of a sexual nature to a female Volunteer we
were attempting to interview. Another Volunteer had to change host families due to the severity
of sexual harassment that was directed at her by a family member .

                               Table 5. Frequency of Sexual Harassment
                   Volunteers who experience non-physical sexual harassment
                   at least once a day
          70%
                    60%
          60%

          50%
                                                          42%
          40%                                                          33%         33%
                                30%           31%
          30%
                                                                                                   20%
          20%

          10%

           0%
                  Colombia     Guyana       Jamaica      Eastern El Salvador Guatemala    All
                                                        Caribbean                      Volunteers
            Source: OIG analysis of 2012 AVS data

                                Table 6. Sources of Sexual Harassment
                                Source of non-physical sexual harassment
           100% 93%            92%          94%         93%
                                                                                 87%         86%
            90%                                                     81%
            80%                                               72%          75%         72%
                     71%              68%
            70%         64%                                                                         65%
            60%                                   53%
            50%
            40%
            30%                                                        25%         24%         25%
                                                          21%
            20%                  11%          9%
            10%
             0%
                   Colombia     Guyana       Jamaica     Eastern  El Salvador Guatemala         All
                                                        Caribbean                            Volunteers

                   Strangers     Counterparts/supervisors/co-workers      Other community members

          Source: OIG analysis of 2012 AVS data

In addition to being very frequent, sexual harassment for Volunteers in Colombia is also
relatively more stressful than for most Volunteers worldwide: 21 percent of Volunteers in



Final Program Evaluation Report: Peace Corps/Colombia                                                     9
Colombia reported that harassment is “very stressful”, whereas less than one in 10 Volunteers
worldwide reported that the sexual harassment they experience was “very stressful” (2012 AVS
data). Peace Corps‟ counselors familiar with issues of harassment and stress noted that it is not
unusual for Volunteers to have more difficulty integrating in an urban environment, nor is it
unusual for them to experience more frequent sexual harassment in an urban setting. As the
counselors observed, an important point about frequent sexual harassment in an urban
environment is that:
        It comes from strangers and it just doesn‟t stop. So if that is going on they should not expect it to ever stop.
        So it‟s important when that is true that Volunteers be given some tools to help them cope with it.

Minimal Community Integration. Peace Corps Programming and Training Guidance, part 1
describes how the achievement of Peace Corps goals depends on each Volunteer‟s understanding
of the local culture:
        The Peace Corps philosophy and experience are that achievement of Peace Corps Goal One requires
        integration of Goals Two and Three; for Volunteers to help meet host country needs for technically trained
        individuals, they must also understand the host country‟s culture and share their own culture with host
        country nationals. Volunteers and their communities learn from each other, share the learning with others,
        and as a result, promote greater opportunities for development and peace around the world. For some
        Volunteers, cultural learning and sharing is as important as their technical contribution.

Volunteers expressed frustrations at having to live and work in barrios. Several Volunteers
reported not feeling safe in their barrio, and that taking common-sense safety and security
precautions made it difficult to integrate. Female Volunteers in particular pointed out that Peace
Corps‟ approach to community integration conflicted with the daily challenge of avoiding unsafe
areas in their barrios:
        “I do not feel integrated in the community at all. Zero. It's the security and it's a bit being a woman. People
        will not leave me alone if I am friendly to anyone.”

        “I know I should visit more but it sounds terrifying and tiring.”

        “Here no one knows me. The neighborhoods I have been in are not places where neighbors are outside
        interacting. People who are neighbors here don't know each other.”

        “There is not a community really outside the school. It's not a meaningful concept. It's an urban area. None
        of the teachers or students live nearby. There is no community to integrate into outside the school. The
        urban setting makes it hard to have a Peace Corps experience.”

Responses to the 2012 AVS also indicated that Volunteers in Colombia rated their community
integration lower than most other Volunteers. Just 30 percent of Volunteers in Colombia reported
feeling either “considerably” or “exceptionally” integrated, whereas over half (55 percent) of
Volunteers worldwide reported feeling at least “considerably” integrated. Compared to a
selection of countries in the Caribbean and Central America where Volunteers also navigate
challenging security environments, Colombian Volunteers report the lowest levels of community
integration (Table 7). Volunteers in Colombia interact with Colombians at cultural or social
events, outside of work, less frequently than do Volunteers worldwide (Table 8).




Final Program Evaluation Report: Peace Corps/Colombia                                                                 10
                             Table 7. Feeling of Community Integration
                   Volunteers who feel considerably or exceptionally integrated
                   in their community
          100%
                                                                  86%
           90%
           80%
           70%                  60%                     58%                    55%         55%
           60%
           50%
                                          38%
           40%      30%
           30%
           20%
           10%
            0%
                  Colombia     Guyana    Jamaica    Eastern El Salvador Guatemala    All
                                                   Caribbean                      Volunteers
           Source: OIG analysis of 2012 AVS data

                          Table 8. Frequency of Community Engagement
                       Volunteers who interact outside of work with community
                       members at family or social events at least once a week
          100%                                                    92%
           90%
                                                                               77%
           80%
                                                                                           70%
           70%                 63%                      64%
                                          59%
           60%      55%
           50%
           40%
           30%
           20%
           10%
            0%
                  Colombia    Guyana     Jamaica    Eastern    El Salvador   Guatemala      All
                                                   Caribbean                             Volunteers

        Source: OIG analysis of 2012 AVS data

Elevated Risk of Urban-based Crime. The decision to limit Volunteer site placements to three
major urban areas has had unintended consequences for Volunteers, especially for female
Volunteers in these cities. The Volunteer Welcome Book acknowledges that the risk of crime is
higher in urban areas, “Crime at the village or town level is less frequent than in the large cities;
people know each other and generally are less likely to steal from their neighbors.” In one case a




Final Program Evaluation Report: Peace Corps/Colombia                                                 11
Volunteer was the victim of a violent assault in a dangerous barrio9, and later witnessed, at close
range, sudden violence between Colombians while riding on a bus. The Volunteer reported that
she continues to experience physical and psychological trauma as a result of these attacks, but
remains committed to completing her service and does not want to change sites.

An essential tenant of Peace Corps‟ approach to Volunteer safety and security is that Volunteers
are safest when they have integrated into their communities. MS 270, “Volunteer/Trainee Safety
and Security” states: “The Peace Corps safety and security program is based upon…the
recognition that Volunteers are generally safest and most productive when they establish strong
ties to their community and develop an effective support network.” This “integration model” of
Volunteer safety and security can work in neighborhoods where a feeling of community exists,
where neighbors know each other, and where the Volunteer is well known as being a part of the
community. It also depends on Volunteers having sufficient local language and cross-cultural
skills to successfully integrate. In the major urban areas of Colombia where most Peace Corps
Volunteers have been placed, Volunteers, including those with strong Spanish, have faced
significant difficulty integrating into their communities. Many of the barrios where Volunteers
have been placed in Cartagena, Barranquilla, and Santa Marta do not possess community
characteristics that make Peace Corps‟ integration model viable. This is so despite the fact that
all sites in these three cities were identified, assessed and developed in a rigorous manner, in
accordance with the post‟s site development criteria and procedures that included in-depth
reviews by security experts and approval for use by Peace Corps and the U.S. Embassy.

The PCSSO‟s February 3, 2010 report contained this important cautionary note about the pitfalls
of concentrating Volunteers in three cities:

           Careful consideration needs to be given to the optimal size of a program that is limited in the near-term to
           urban and peri-urban areas in only three cities. Placing almost 30 PCVs in such a limited geographic area
           could result in problematic Volunteer conduct sometimes associated with high concentrations of PCVs.

           Also, a large number of PCVs in only three cities may require Post to place Volunteers in sub-optimal
           placements. These placements might be sub-optimal programmatically (e.g., to a school that has only a
           modest English-teaching program and therefore doesn‟t fully occupy the PCV), or they may be to areas
           with questionable security climates. As examples of both types, the programmatic Viability Report from
           this visit lists Pies Descalzos in Barranquilla as a potential partner, despite the fact that this foundation
           already has 7 World teach volunteers assigned to it in Barranquilla. As another example, Granitos de Paz is
           listed as another potential partner, despite the foundation‟s working in the most dangerous Cartagena
           neighborhood that is replete with gang violence.

           The PCSSO does not make a specific recommendation about the maximum number of Volunteers that is
           appropriate for the north coast. However, the PCSSO maintains that care must be given in determining the
           optimal number of Volunteers so that that Post can avoid placing Volunteers in insecure neighborhoods and
           so that selected sites offer sufficient engagement (and avoid distractions) so as to promote Volunteers‟
           integration in their communities.

The risk of theft, assault and other common types of urban crime is high, and it is likely that
more Volunteers in Colombia will be victims of crime as long as most are in Cartagena,
Barranquilla and Santa Marta. To reduce the concentration of Volunteers in Cartagena,


9
    A barrio is a neighborhood.


Final Program Evaluation Report: Peace Corps/Colombia                                                                 12
Barranquilla and Santa Marta, the Peace Corps needs to develop new sites outside of these urban
areas.

                We recommend:

                1. That the regional Peace Corps safety and security officer and the post’s
                    safety and security coordinator, in collaboration with the U.S. Embassy’s
                    security personnel, assess security conditions along Colombia’s
                    Caribbean coast and define the geographic boundary within which the
                    Peace Corps can develop new sites and safely operate outside of major
                    urban areas.

                2. That the post develop a strategy to mitigate, and help Volunteers better
                    manage, stressors connected to their service, including personal safety,
                    healthy diets, sexual harassment and other stressors.

                3. That the Inter-America and the Pacific Operations regional director and
                   the associate director for Safety and Security assess the viability of
                   community integration approach to Volunteer safety for urban sites in
                   Colombia, and, if necessary, identify and implement steps to strengthen
                   its effectiveness.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has the post provided
adequate support and oversight to Volunteers?” To determine this, we assessed numerous
factors, including staff-Volunteer communications; feedback from staff on Volunteers‟ written
reports; medical support; safety and security support including staff visits to Volunteer work
sites, the Emergency Action Plan (EAP), and the handling of crime incidents; and the adequacy
of the Volunteer living allowance.

Volunteers gave generally favorable ratings for the quality of support they had received from the
staff. Volunteers‟ ratings for support in specific areas were as follows.




Final Program Evaluation Report: Peace Corps/Colombia                                          13
                          Table 9. Volunteer Perceptions of Staff Support 10
                          Support Area          Percent of Volunteers          Average
                                                  Rating “Average              Rating
                                                 Support” or Better
                       Leadership                       75%                       3.4
                       Programming                      95%                       4.3
                       Training                         100%                      4.7
                       Safety and Security              94%                       4.1
                       Medical                          100%                      4.5
                       Administrative                   100%                      4.4
                     Source: OIG interviews.

With respect to Volunteer living allowances, seventy-eight percent of Volunteers indicated that
their monthly living allowance was at least adequate (3.4 or 5 out of 5). However, even among
those Volunteers who rated the living allowance a 3 (adequate), several asserted that the higher
cost of living in Cartagena justified a higher stipend for Volunteers in that city; some Volunteers
reported that it was very costly to maintain a healthy diet (even though host families were
supposed to provide two meals/day); some reported that they typically spent from $30 to $50 of
their own money each month in order to buy healthy food, pay for taxis when other forms of
transportation were unsafe, or simply purchase clothes or toiletries.

However, more than half of interviewed Volunteers, including Volunteers in each city, did not
report any problems with their monthly living allowance. The post had performed living
allowance surveys and explained the survey results to Volunteers. The living allowance in
Colombia is likely to remain a source of stress for some Volunteers, though there does not
appear to be much more that post can do to ensure that the living allowance is fair and adequate.

Volunteers rated the quality of medical support they have received from the current PCMO in
Colombia quite favorably (average of 4.5 out of 5). The PCMO, who has been at post since May
of 2012, was the ninth PCMO in Colombia since August of 2011. Volunteers gave her high
ratings for the quality of her care and support.

The host family policy generates stress for Volunteers and management challenges for staff.

The Volunteer Welcome Book for Colombia informs those who have been invited to serve in
Colombia that all Volunteers in Colombia must live with a host family for their entire service.
The Volunteer Handbook describes the reason behind the required host family stay:

        All PCVs are required to live with a host family for their entire service; this applies to all PCVs,
        regardless of age or marital status. Living with local families supports the PCVs‟ introduction to and




10
   Leadership was derived from the country director score. Programming was derived by averaging the scores of the
Director of Programming and Training and the Program Manager for TEL. Training was derived by averaging the
ratings for the training manager and senior trainer. Safety and Security was derived from the safety and security
coordinator score. Medical was derived from the collective PCMO scores. PCVL/PCVC scores were derived from
the average scores for individuals in those positions.


Final Program Evaluation Report: Peace Corps/Colombia                                                            14
        integration into their communities, strengthens language skills, and provides conditions for increased safety
        and security.

In addition to these reasons are economic factors. The three cities of Barranquilla, Cartagena and
Santa Marta are expensive. Post leadership acknowledged that renting rooms from host families
makes it possible to place Volunteers in the large urban areas in a cost effective manner, but that
renting apartments for Volunteers in the cities would be cost prohibitive.

Volunteers in Colombia have frequently struggled to adjust to living with their host families. The
host family model has generated stress in the Volunteer community (Table 10).

                               Table 10. Stressfulness of Host Family Stays
                        Volunteers citing host family as source of moderate or
                        higher levels of stress
           60%
                     50%
           50%                                                         44%
           40%

           30%                                                                     25%          24%
                                              21%         19%
           20%                    17%

           10%

            0%
                  Colombia      Guyana       Jamaica     Eastern El Salvador Guatemala       All Peace
                  Volunteers                            Caribbean                             Corps
                                                                                             Volunteers
         Source: OIG analysis of 2012 AVS data 11

Excluding host family changes that were necessary to address a security concern, a site change,
or a host family issue unrelated to the Peace Corps, four Volunteers had changed their host
families a total of six times, and one Volunteer was planning to request a third host family
change. The frequency with which some Volunteers have requested a host family change has led
to management challenges for staff. Volunteers and staff were concerned that the frequent host
family changes had angered and alienated Colombian families.
        “We‟re also making families angry by all of these changes—there‟s too much concern for the Volunteer
        and not the family.”

        “This is a major pebble in the shoe for us.”




11
  Colombia, El Salvador and Guatemala require Volunteers to stay with a host family for the full length of their
service; Guyana, Jamaica and Eastern Caribbean do not have this requirement. In addition, “Colombia Volunteers”
survey responses come from one group (cohort) of Volunteers whereas responses from other countries include
Volunteers from multiple cohorts, at different points in their service.


Final Program Evaluation Report: Peace Corps/Colombia                                                             15
The problem of host family changes in Colombia has two main causes. Volunteers with lower
Spanish proficiency have tended to struggle more to form effective relationships with their
Colombian host families, and have lacked the communication skills to address and resolve day-
to-day issues with their host families without relying on support from staff. In addition, the
Volunteer Handbook states that Volunteers are not required to stay with the same host family
during their entire service, and may request a host family change:

        The HFC [Host Family Coordinator] and your PM [Program Manager] are available to help resolve any
        issues you may have with your host family. Volunteers are not required to stay with the same family for
        their entire service and may change families if necessary.

The staff person responsible for coordinating host family stays for Volunteers has limited
English, which has complicated communication with the same subset of Volunteers who have
experienced the most difficulties with the host family model. Volunteers were upset about this
arrangement, and the issue had become a point of disagreement between Volunteers and staff,
and among Volunteers. The host family model has been problematic for some Volunteers. Staff
expressed frustration with the strict 27 month home-stay requirement for all Volunteers as well
as a desire to identify policies that would better match the needs of Volunteers and reduce the
frequency of host family changes.

                 We recommend:

                 4. That the country director and Inter-America and the Pacific Operations
                    regional director at headquarters identify a host family policy for
                    Colombia that results in Volunteers having more successful host family
                    relationships.


The post lacked sufficient office space for staff and Volunteers.

Characteristics and Strategies of a High-Performing Post: Post Management Resource Guide
articulates agency standards related to adequate office space for staff and Volunteers:

        Volunteers are (and feel) welcome at the Peace Corps office, where they have a combination of facilities
        (resource center, computers, lounge, etc.) appropriate to support them both technically and personally.

        Workplaces (offices, training sites, resource centers, etc.) are conducive to work. They are organized,
        basically comfortable, modest, clean, accessible, and large enough for individuals to get their work done
        without disruption (April 2010).

The work of staff was made more difficult by the lack of sufficient office space. Sta ff
complained that there was not enough office space to perform common tasks like develop flip
charts or to store materials, and expressed that the office “is a problem for everyone.”
Headquarters personnel who had visited the post indicated their concern that the office was
inadequate to the long-term needs of the post. Leadership at the post was aware that the current
amount of office space was inadequate and was trying to identify options to secure additional
space. Plans included converting a training room used by temporary language and culture
facilitators into a Volunteer lounge.


Final Program Evaluation Report: Peace Corps/Colombia                                                               16
The Peace Corps office had limited space available to accommodate visiting Volunteers. There
was a small area off one corridor with a desk, two chairs, two computers and a printer where
only two Volunteers could work at the same time. There was no Volunteer lounge. Much of the
Volunteer resource center was on shelves in the country director‟s office. Volunteers described
the office environment as cramped and crowded, and worried that it would only get worse when
30 more trainees were scheduled to arrive at the end of August 2012.

                  We recommend:

                  5. That the country director and the Inter-America and the Pacific
                     Operations regional director at headquarters assess the sufficiency of the
                     current office space and secure additional office space, if needed.

The post had not completed its medical evacuation plan.

MS 264 “Medical Evacuation” requires each post to prepare a country-specific Medical
Evacuation Plan. MS 264.3 “Policies” states:
    (f)    Each post must prepare a country-specific Medical Evacuation Plan (Plan), keep it current, and adjust it
          according to changes available in commercial transportation or conditions at the medevac locations that
          could impede or prevent medevac to such locations. The Plan is intended to be a comprehensive, country-
          specific reference guide designed to assist the Post with the safe and efficient medical evacuation of
          Volunteers, in individual cases and/or as a group. The Plan should be prepared by the PCMO in
          consultation with embassy medical personnel as appropriate, and approved by the Country Director (CD).

The post did not have a completed medical evacuation plan at the time of the evaluation.
Information on communication systems, emergency transfusion procedures, emergency supplies
and equipment, Volunteer evacuee documents, accompaniment documents, and regional
medevac procedures had not been completed. The PCMO asserted that she had looked for the
medical evacuation policy and been unable to locate it, and thought it perhaps was no longer part
of the PCMO‟s responsibilities.

The fact that the post had nine different PCMOs between August 2011 and May 2012
undoubtedly made it more difficult for the post to focus on getting the medical evacuation plan
completed. The lack of a medical evacuation plan for over two years represents an area of
weakness with respect to the re-opening of operations in Colombia. It raised the level of risk that
a Volunteer‟s needs would not be properly addressed in a medical emergency when the PCMO
or other experienced staff were not available. Fortunately the post‟s current leadership had
sufficient experience to effectively manage evacuations for the Volunteers who needed to be
evacuated from Colombia for emergency medical care.

In the months following the evaluation post has made progress on its medical evacuation plan.
As of January 2013, each component of the medical evacuation plan had been attended to, and
the plan was nearing completion.




Final Program Evaluation Report: Peace Corps/Colombia                                                             17
                We recommend:

                6. That the Peace Corps medical officer complete the medical evacuation
                   plan.

                7. That the Office of Health Services review the post’s medical evacuation
                   plan to ensure its completeness.

The TEL program manager had not provided feedback to Volunteers on their work reports.

Characteristics and Strategies of a High-Performing Post: Post Management Resource Guide sets
expectations regarding communication between staff and Volunteers:

        The country director and staff communicate regularly and openly with Volunteers through a variety of
        means. They convey useful technical and program information and policies, and give encouragement,
        constructive suggestions, and admonitions, as appropriate. They also actively seek input from the
        Volunteers (April 2010).

The agency‟s Programming and Training Guidance: Project Design and Evaluation describes
actions that program managers (PM) take in order to effectively monitor and evaluate their
project‟s progress. A key periodic action step the agency expects program managers to perform
is to review Volunteer work reports and then give feedback to Volunteers on their reports (e.g.
acknowledging accomplishments, addressing challenges and making suggestions.)

Eleven of twenty (55 percent) Volunteers who were interviewed in Colombia had received no
feedback from the TEL program manager on either of two quarterly work reports they had
submitted. Six Volunteers had received feedback on their first work report, but not their second
report; just three Volunteers had received feedback on both their first and second reports. For
some Volunteers the lack of feedback on their first report negatively affected the amount of
effort the Volunteers put into completing subsequent work reports.
        “The fact that she has not responded to my VRF makes me unmotivated to do my next VRF. The feedback
        I got was not useful because it was very late.”

        “On my second VRF I did not put much effort into answering the more narrative parts of the form, because
        I do not believe that [PM] reads it or will take the time to respond.”

        “The last one was shorter; the first one was more complete and detailed.”

        “The 2nd time I did the bare minimum, since I did not get any feedback on the first one.”

As a result there was less useful information for project management purposes than would have
been the case had a more timely and substantive review of Volunteer work reports been
provided. Reductions in the amount of care and attention Volunteers put into their quarterly
reports can also compromise the ability of the post to communicate accomplishments in annual
reports to project stakeholders, a key indicator in the agency‟s performance and accountability
report. It may also compromise the post‟s ability to develop complete and accurate information
as part of annual strategic planning and budgeting analyses (i.e. “program analysis”).The cause




Final Program Evaluation Report: Peace Corps/Colombia                                                          18
of this lack of timely feedback on Volunteer work reports was not entirely clear, though appeared
to be a mix of factors, including the program manager‟s lack of comfort with the VRT.


                We recommend:

                8. That the director of programming and training set expectations
                   regarding the timeliness of staff feedback to Volunteers on their work
                   reports and ensure that staff uses the Volunteer Reporting Tool to
                   support Volunteers and communicate project results.

                9. That the program manager become more familiar with the feedback
                   functionality of the Volunteer Reporting Tool and provide timely and
                   substantive feedback to Volunteers.

PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we reviewed:

        the coordination between the Peace Corps and the host country in determining
        development priorities and Peace Corps program areas;
        whether post is meeting its project objectives;
        counterpart selection and quality of counterpart relationships with Volunteers;
        site development policies and practices.

Host Country Relationships and Coordination. In our review of post‟s records and through
interviews with post leadership, Colombian Ministry officials and other project partners, we
found evidence of strong relationships between Peace Corps and host country officials and
partners. The relationship in particular between the Secretary of Education in Barranquilla and
post senior staff and leadership has been well developed and maintained. Each Colombian
partner interviewed expressed an interest in receiving more Volunteers, explaining the many
opportunities available to support program growth in education as well as youth development.

TEL Project Design. The TEL project has been designed and managed to allow current
Volunteers sufficient opportunity to contribute to its goals and objectives. All TEL Volunteers
were familiar with the goals of the TEL project and 16 of 21 Volunteers stated that they could
contribute to the goals at least moderately well. All Volunteers had at least one Colombian
teacher or school administrator as a counterpart, and several Volunteers considered all the
English teachers at their school as either actual or potential counterparts. The 20 TEL Volunteers
interviewed counted approximately 70 Colombian educators among their counterparts.
Volunteers were generally very positive concerning their counterpart relationships: 77 percent of
Volunteers characterized their counterpart relationship as being either above average or
outstanding.




Final Program Evaluation Report: Peace Corps/Colombia                                             19
                 Figure 4. The Teaching English for Livelihoods Project Framework
Project Purpose: Colombian primary, secondary, and technical education teachers will strengthen their
personal and professional opportunities through improved English teaching abilities.

Goal One: Teachers at the primary, secondary and technical education levels will improve their current
TEFL methodologies, their teaching resources development and lesson planning skills, and will gain
practice in using English in classroom settings.
(Goal one includes three objectives, paraphrased as: co-planning and co-teaching; workshop
development for English teachers; and development of creative teaching materials)

Goal Two: Students and teachers whose primary instructional responsibility is not English will develop
communicative competencies in English, according to their needs.
(Goal two includes two objectives, paraphrased as: English language training for non-English teachers;
and English learning through extracurricular activities for youth)

Goal Three: Community members will be engaged in programs and activities related to education and
youth development that can improve their livelihoods.
(Goal three includes two objectives, paraphrased as: youth life skills development through community-
based projects; and English learning opportunities for community members.)

The post‟s 2012 report 12 on the accomplishments and status of the TEL project indicates that
TEL Volunteers in 2012 made contributions toward bilingualism along the north Caribbean
coast, and that some of the desired outcomes of the TEL project (Colombian teachers improving
their English teaching abilities, Colombian youth improving their life skills and their English
abilities, and Colombian community members improving their English abilities) were
progressing.

PCRVs, though not working directly with the English goals of the TEL project, engage in youth
and community development work with a non-governmental organization focused on youth and
other community-based projects. The type of work PCRVs conduct is in line with the intent of
the third goal of the TEL project, focused on community members and youth development
(Figure 4). PCRVs reported being very satisfied with their sites, and having sufficient project
work to do.

Site Development. Site development in Colombia adhered to a set of steps described in the
post‟s site development guidebook. This guidebook is based on similar written criteria and
management controls that guide the site development processes at other posts including Zambia,
Ecuador, and Paraguay. Documentation related to each step in Colombia‟s site development and
approval process was organized and demonstrated sufficient oversight by the director of
programming and training, and the country director. Ninety-five percent of Volunteers expressed



12
     The 2012 Project Status Report for the TEL Project in Colombia.


Final Program Evaluation Report: Peace Corps/Colombia                                                    20
satisfaction with their sites, including 62 percent who were “very satisfied.” Ninety-one percent
of Volunteers indicated that they had sufficient work to do most of the time.

TEL Project Challenge Areas. TEL Volunteers face difficult work challenges that generate
stress and frustration. Colombian English teachers often work second jobs outside the school,
and lack time to collaborate with Volunteers on lesson planning for their classrooms. A few
Volunteers reported that many of the teachers they work with have ingrained habits and resist
changing their teaching methodologies. Some schools cancel classes with little advance notice,
leaving Volunteers confused and feeling under-utilized. Volunteers also reported that their
classrooms were noisy and difficult to manage--a challenge that appeared more acute for
Volunteers with less teaching experience.

A few Volunteers questioned if the right balance had been struck in the TEL project because they
had to spend too much time on their first goal responsibilities at school (co-teaching/co-
planning).

        “It's hard to do anything like workshops with the teachers during the week because I spend so
        much time co-teaching.”

        “Sticking us in schools is a waste past the first year. There are hundreds of schools and many
        motivated teachers. We have the potential to develop a program here to reach so many teachers
        and students and schools and to create materials to be passed on. We could do that through other
        means than being in the classroom.”

In addition, several Volunteers argued that the TEL project should focus on placing more
Volunteers at normales (teacher training colleges) where student teachers are more open to
learning how to teach English more effectively.

        “We should be splitting time between the English teachers in training at the normales, and
        English teachers in the public schools.”

        “Co-teaching is something that looks great on paper but in my experience it only works when
        there are certain things in place. 1) both teachers must want to co-teach together. 2) both teachers
        must have time to co-plan together and 3) both teachers should have complementary skills. I think
        co-teaching could be more effective here if it were focused on working with teachers in training
        at the normales. There are a few [teachers] who are motivated to co-plan and co-teach and learn,
        but they are few and far between. For this reason co-teaching in the schools should be de-
        emphasized by the project in order to refocus Volunteers in normales. Those teachers are in a
        formative place and much more eager to try new things as they learn how to teach.”

In a review of Volunteer site placements we determined that, in fact, the post had placed TEL
Volunteers with sufficient professional background as teachers in normal superiors or teacher
training institutions. With few exceptions, Volunteers with less teaching experience were placed
in public schools where they could both gain teaching experience and begin to collaborate
through co-planning and co-teaching with public school English teachers.

TEL Project Prospects for Growth. Because the number of TEL Volunteers in 2013 is more
than twice the number of active Volunteers during our fieldwork we were unable to assess the


Final Program Evaluation Report: Peace Corps/Colombia                                                    21
question of what the optimal size of the TEL project should be in the urban and peri-urban areas
to which operations have been limited. Though we are not issuing a formal finding or
recommendation specific to programming, post may benefit from a review of the TEL project
conducted by an education specialist from Overseas Programming and Training Support
(OPATS) in order to assess specifically whether or not a sufficient number of high quality
programmatic opportunities exist in Cartagena, Barranquilla and Santa Marta for the projected
numbers of TEL Volunteers.

TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as:

           training adequacy;
           planning and development of the training life cycle;
           staffing and related budget.

As of August 2012, post had conducted one 11-week pre-service training (PST) for two-year
Volunteers (from October 14 2011 through January 13, 2012) with assistance from temporary
duty training staff that Peace Corps headquarters provided to the post. As field work for this
evaluation was ending, the post was preparing for the arrival of 30 trainees and had made a
number of important modifications to its training program. The post had evaluated its first PST
and incorporated lessons-learned into the design and planning of its second PST. In addition to
11 weeks of PST, most interviewed Volunteers had participated in two subsequent workshops,
one on HIV/AIDS education prevention, another on project management and leadership.
Volunteers gave favorable ratings (at least 3 out of 5) for most of the training they had
participated in, though language received a lower average rating than other types of training.

Some Volunteers lacked sufficient Spanish skills to function effectively in Colombia.

The Peace Corps Act section 2521 contains a foreign language proficiency standard which
specifies:

           No person shall be assigned to duty as a volunteer under this chapter in any foreign country or area unless
           at the time of such assignment he possesses such reasonable proficiency as his assignment requires in
           speaking the language of the country or area to which he is assigned.

The post‟s Volunteer Welcome Book states that all trainees must demonstrate that their Spanish
tests at or above the “intermediate medium” proficiency level prior to swearing-in as Volunteers.

We interviewed Volunteers who acknowledged that they lacked sufficient Spanish language
skills. Spanish proficiency test scores from PST in 2011 show that twelve out of twenty-three
trainees arrived in Colombia with a “novice” level of Spanish. Post lacked certified language
testers for the PST in 201113. As a result, test scores did not indicate how many Volunteers had


13
     Peace Corps Colombia had certified Spanish language testers for the fall 2012 PST.


Final Program Evaluation Report: Peace Corps/Colombia                                                                22
met the “intermediate medium” swearing in requirement. All trainees swore-in as Volunteers,
including some who, based on our interviews with staff and Volunteers, had not met the Spanish
language swearing-in requirement. Volunteers generally rated the quality of Spanish instruction
during PST lower than other types of training. Language training received a 65 percent favorable
rating, and seven (35 percent) of Volunteers rated the quality of language instruction during PST
as below average. Most of the criticism from Volunteers concerning the quality of Spanish
language instruction focused on the methodology that the instructors used, which did not provide
instruction in Spanish grammar. This criticism came from Volunteers with advanced Spanish as
well from those with novice and intermediate Spanish.

As noted previously, Volunteers with lower Spanish proficiency have tended to struggle in their
Colombian home stays more than have Volunteers with advanced Spanish. Poor Spanish skills
among some Volunteers have created problems communicating with staff as well. In addition,
lack of Spanish skills impedes Volunteers efforts to engage in activities other than teaching
English.

In the PST that started in September 2012, the post made some adjustments to its Spanish
instruction approach in two key ways: adding Spanish grammar instruction in response to
feedback from Volunteers; and allowing advanced or superior Spanish speaking trainees to do
independent projects during the time reserved for Spanish instruction. Language proficiency test
scores for trainees who swore-in as Volunteers in November 2012 indicated that seven of nine
trainees improved their Spanish sufficiently to meet the post‟s swearing-in requirement.

               Table 11. Language Scores of Trainees (September-November 2012)
          30                                                                        At or above
                                                                                    standard, 28

          25
                                       At or above
                                       standard, 20
          20


          15
                            Below
          10             standard, 9


           5                                                             Below
                                                                      standard, 2

           0
                              Start of PST                                  End of PST
         Source: OIG analysis of post data. One trainee was not tested at start of PST.

The two trainees who tested one level below (intermediate low) the post‟s swearing-in standard
were allowed to swear-in because each had strong potential to meet the Spanish standard within
three months of swearing-in, each had demonstrated a commitment to improving his/her Spanish,
had maintained a positive attitude, and shown the ability to integrate well with Colombian host


Final Program Evaluation Report: Peace Corps/Colombia                                              23
families. Based on post‟s adjustments to its Spanish language program, including its tightening
of the application of swearing-in requirements for trainees, we have determined that no
recommendation specific to Spanish language training is merited.

Some Volunteers lacked flexibility, self sufficiency, and respect for Colombians.

MS 201 “Eligibility and Standards for Peace Corps Volunteer Service” states the attributes
required to quality for Volunteer service, which include sufficient “maturity, flexibility and self
sufficiency to adapt successfully to life in another culture, and to interact and communicate with
other people regardless of cultural, social and economic differences.”

We observed during our fieldwork occasions when Volunteers made insensitive comments in
English about Colombians in their presence, perhaps assuming that English would not be
understood. Some Volunteer complaints about aspects or conditions of their service reflected
deficits of cross-cultural understanding, self sufficiency, maturity and flexibility:

        “My previous host family only let me use the iron one hour a week. In my current host family there is no
        ironing board, so I have to iron my clothes on my bed, and that is not convenient.”

        “A woman, a counterpart, started praying during a workshop when we were all assembled. I mean, this was
        a U.S. government event. What happened to the separation of church and state! Well, I was very shocked
        by this, and so I got up and left.”

        “One Volunteer called her mother in the United States to complain about bugs in her bed, and then her
        mother called the office.”

Staff and Volunteers expressed dismay at some of the culturally-insensitive attitudes some
Volunteers have demonstrated toward Colombians:

        “A few of the Volunteers do not represent the three goals well in Colombia. Some have been rude and have
        been verbally aggressive to their host families. It is difficult to bear.”

        “There have been situations with Volunteers who have been disrespectful with their counterparts and with
        teachers.”

        “I have witnessed Volunteers making insulting comments about Colombians and Colombia in the presence
        of Colombians. Colombians often understand what they are saying, and it is embarrassing. Volunteers have
        shown a lack of respect for the culture.”

        “If you find yourself complaining about something the first thing you should do is stop and ask yourself,
        what did I sign up for? This job is supposed to be hard, and compared to what Colombians have to deal
        with what should you expect? How would the kids you are around take what you are complaining about if
        it is their life? You're supposed to work under the conditions of how people live. So please, don't complain
        about the water not being cold, or the coffee having sugar, or too much rice, or whatever! Look in the
        mirror. Why did you come here? More self-reflection needs to happen, please.”

Volunteers and staff acknowledged that PST did not sufficiently stress the importance of
understanding and respecting Colombians and their culture, or the idea that being a Volunteer
means being in service to the people of Colombia.




Final Program Evaluation Report: Peace Corps/Colombia                                                              24
                We recommend:

                10. That the director of programming and training and the training manager
                    make necessary adjustments to training so that Volunteers in Colombia
                    clearly understand their role as Volunteers, including the requirement to
                    demonstrate respect for Colombians and their culture as well as sufficient
                    adaptability and self sufficiency.




Final Program Evaluation Report: Peace Corps/Colombia                                       25
                 OBJECTIVE, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. The Inspector General
(IG) is under the general supervision of the Peace Corps Director and reports both to the Director
and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

The OIG Evaluation Unit announced its intent to conduct the evaluation on May 2, 2012. For
post evaluations, we use the following researchable questions to guide our work:

        To what extent has post developed and implemented programs to increase host country
        communities‟ capacity?
        Does training prepare Volunteers for Peace Corps service?
        Has the post provided adequate support and oversight to Volunteers?
        Are post resources and agency support effectively aligned with the post‟s mission and
        agency priorities?

The evaluator conducted the preliminary research portion of the evaluation May 3 to July 13,
2012. This research included a review of agency documents provided by headquarters and post
staff; interviews with management staff representing the Inter-America and the Pacific
Operations region, Peace Corps Response, OPATS, Volunteer Support, the Office of Health
Services, Volunteer Recruitment and Selection, and the Office of the Director.

In-country fieldwork occurred from July 31 to August 15, 2012, and included interviews with
post senior staff in charge of programming, training, and support; the U.S. ambassador; the RSO
and assistant RSO; a Colombian government ministry official; and Colombian non-governmental
organization representatives. In addition, we interviewed all Volunteers who were serving in
Colombia at the time of fieldwork. After the in-country fieldwork the evaluator did additional
analysis of data that was made available in late October and early November including results
from the 2012 AVS (the same Volunteers interviewed during field work in August 2012 also had
recently responded to the 2012 AVS) and other reports submitted by post to headquarters.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency. The evidence, findings, and
recommendations provided in this report have been reviewed by agency stakeholders affected by
this review.




Final Program Evaluation Report: Peace Corps/Colombia                                           26
                               INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with 24 Volunteers, 10 staff members
in-country, and 24 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Colombia, and key ministry officials. Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = average effective, 5 = very effective). The analysis of these
ratings provided a quantitative supplement to Volunteers‟ comments, which were also analyzed.
For the purposes of the data analysis, Volunteer ratings of “3” and above are considered
favorable. In addition, we interviewed 18 of 24 Volunteers at their sites and inspected their
housing using post-defined housing criteria; for the six sites we could not visit we relied on
Volunteer interviews to determine if their housing met the post‟s standards. The period of review
for a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Colombia; the Volunteer sample was selected to reflect these demographics.

                              Table 12. Volunteer Demographic Data
                                                                    Percentage of
                                Project
                                                                     Volunteers
             TEL Project                                                83%
             Response Volunteers                                        17%
                                                                    Percentage of
                                Gender
                                                                     Volunteers
             Female                                                     58%
             Male                                                       42%
                                                                    Percentage of
                                  Age
                                                                     Volunteers
             25 or younger                                              50%
             26-29                                                      21%
             30-49                                                      17%
             50 and over                                                13%
            Source: PC/Colombia Volunteer roster in August 2012.
            Note: Percentages may not total 100% due to rounding.

At the time of our field visit, the post had 19 permanent staff positions as well as eight temporary
training staff to assist with PST. We interviewed 10 staff members.

              Table 13. Interviews Conducted with PC/Colombia Staff Members
                             Position                       Status    Interviewed
      Country Director                                                 USDH           X
      Director of Programming and Training                             USDH           X
      Safety and Security Coordinator                                  PSC            X
      Executive Assistant                                              PSC


Final Program Evaluation Report: Peace Corps/Colombia                                             27
       Director of Management and Operations                              USDH                    X
       General Services Assistant                                         PSC
       Driver/Messenger (2)                                               PSC
       Financial Assistant                                                FSN
       Cashier                                                            FSN
       Information Technology Specialist                                  PSC
       Administrative Assistant                                           PSC
       Medical Officer                                                    PSC                     X
       Medical Administrative Assistant                                   PSC
       Training Manager                                                   PSC                     X
       Host Family Coordinator                                            PSC                     X
       TEL Project Manager                                                PSC                     X
       Programming and Training Specialist (2)                            PSC                     X
       Language and Cultural Coordinator                                  PSC
       Language and Cultural Facilitators (9)                             PSC
     Data as of August 2012. *PSC is personal services contractor; FSN is foreign service national.

We interviewed twenty-four other stakeholders during this evaluation‟s preliminary research
phase, as part of our in-country fieldwork, and upon return to Peace Corps headquarters in
Washington, D.C.

                 Table 14. Interviews Conducted with PC/Headquarters Staff,
                  Embassy Officials, Ministry Officials and Project Partners
                             Position                               Organization
     Regional Director                                                   PC/Headquarters/IAP Region
     Chief of Operations                                                 PC/Headquarters/IAP Region
     Chief of Programming and Training                                   PC/Headquarters/IAP Region
     Country Desk Officer                                                PC/Headquarters/IAP Region
     Chief Administrative Officer                                        PC/Headquarters/IAP Region
     Director, Office of Health Services                                 PC/Headquarters/OHS
     Deputy Director, Office of Health Services                          PC/Headquarters/OHS
     Psychologist, Counseling and Outreach Unit                          PC/Headquarters/OHS/COU
     Expert Consultant, Counseling and Outreach Unit                     PC/Headquarters/OHS/COU
     Director, Peace Corps Response                                      PC/Headquarters/PCR
     Programming Specialist, Peace Corps Response                        PC/Headquarters/PCR
     Recruitment and Placement Specialist, Peace Corps                   PC/Headquarters/PCR
     Response
     Regional Security Advisor                                           PC/Headquarters/IAP Region
     Peace Corps Safety and Security Officer                             PC/Headquarters/IAP Region
     Placement Supervisor, Volunteer Recruitment and                     PC/Headquarters/VRS
     Selection
     Placement Manager, Volunteer Recruitment and Selection              PC/Headquarters/VRS
     Program & Training Education Specialist, Overseas                   PC/Headquarters/OPATS
     Programming and Training Support
     Senior Advisor, Office of the Director                              PC/Headquarters/D
     Regional Security Officer                                           U.S. Department of
                                                                         State/Colombia
     Ambassador                                                          U.S. Department of
                                                                         State/Colombia


Final Program Evaluation Report: Peace Corps/Colombia                                                 28
     Assistant Regional Security Officer                  U.S. Department of
                                                          State/Colombia
     Secretary of Education of Barranquilla               Colombia‟s Ministry of
                                                          Education
     School Principal in Barranquilla                     Fundación Pies Descalzos
     Executive Director, Colombian partner organization   Fútbol con Corazón
    Data as of November 2012.




Final Program Evaluation Report: Peace Corps/Colombia                                29
                            LIST OF RECOMMENDATIONS
WE RECOMMEND:

    1. That the regional Peace Corps safety and security officer and the post‟s safety and security
       coordinator, in collaboration with the U.S. Embassy‟s security personnel, assess security
       conditions along Colombia‟s Caribbean coast and define the geographic boundary within
       which the Peace Corps can develop new sites and safely operate outside of major urban
       areas.

    2. That the post develops a strategy to mitigate, and help Volunteers better manage, stressors
       connected to their service, including personal safety, healthy diets, sexual harassment and
       other stressors.

    3. That the Inter-America and the Pacific Operations regional director and the associate
       director for Safety and Security assess the viability of the community integration approach
       to Volunteer safety for urban sites in Colombia, and, if necessary, identify and implement
       steps to strengthen its effectiveness.

    4. That the country director and Inter-America and the Pacific Operations regional director at
        headquarters identify a host family policy for Colombia that results in Volunteers having
        more successful host family relationships.

    5. That the country director and the Inter-America and the Pacific Operations regional
       director at headquarters assess the sufficiency of the current office space and secure
       additional office space, if needed.

    6. That the Peace Corps medical officer complete the medical evacuation plan.

    7. That the Office of Health Services review the post‟s medical evacuation plan to ensure its
       completeness.

    8. That the director of programming and training set expectations regarding the timeliness of
       staff feedback to Volunteers on their work reports and ensure that staff uses the Volunteer
       Reporting Tool to support Volunteers and communicate project results.

    9. That the program manager become more familiar with the feedback functionality of the
       Volunteer Reporting Tool and provide timely and substantive feedback to Volunteers.

    10. That the director of programming and training and the training manager make necessary
        adjustments to training so that Volunteers in Colombia clearly understand their role as
        Volunteers, including the requirement to demonstrate respect for Colombians and their
        culture as well as sufficient adaptability and self sufficiency.




Final Program Evaluation Report: Peace Corps/Colombia                                               30
 APPENDIX A: ACRONYMS AND GLOSSARY OF SPANISH TERMS
AUC                         United Self-Defense Forces of Colombia
AVS                         All Volunteer Survey
BACRIMs                     Bandas criminales (criminal gangs)
Barrio                      A neighborhood
Charla                      A talk, or discussion
EAP                         Emergency Action Plan
ELN                         National Liberation Army
FARC                        Revolutionary Armed Forces of Colombia
FTO                         Foreign terrorist organization
GOC                         Government of Colombia
GDP                         Gross domestic product
HDI                         Human development index
IHDI                        Inequality-adjusted human development index
NGO                         Non-governmental organization
Normales                    Teacher training schools
OIG                         Office of Inspector General
PCMO                        Peace Corps Medical Officer
PCSSO                       Peace Corps Safety and Security Officer
PCRV                        Peace Corps Response Volunteer
PCV                         Peace Corps Volunteer
PST                         Pre-service training
RSO                         U.S. Embassy Regional Security Officer
TEFL                        Teaching English as a foreign language
TEL Project                 Teaching English for livelihoods project
USG                         United States government
VIDA                        Volunteer information database application




Final Program Evaluation Report: Peace Corps/Colombia                     31
      APPENDIX B: AGENCY’S RESPONSE TO THE PRELIMINARY
                                             REPORT




MEMORANDUM
To:             Kathy Buller, Inspector General
Through:        Daljit K. Bains, Chief Compliance Officer


From:           Nina Favor, Acting Regional Director
                George Baldino, Country Director

Date:           April 1, 2013

CC:             Carrie Hessler-Radelet, Acting Director
                Stacy Rhodes, Chief of Staff
                Carlos Torres, Acting Associate Director for Global Operations
                Joaquin Ferraro, Deputy Inspector General
                James F O'Keefe, Assistant Inspector General/Evaluations
                Ed Hobson, Associate Director for Safety and Security
                Daryl Sink, Chief, Overseas Operations, Safety and Security
                Shelley Swendiman, Acting Chief of Operations
                Howard Lyon, Chief of Operations Advisor
                Amy Johnson, Chief of Programming and Training
                Ella Ewart, Country Desk Officer
                Joshua O‟Donnell, Regional Security Advisor
                Brenda Goodman, Deputy Associate Director, Office of Health Services


Subject:        Agency Response to the Preliminary Program Evaluation Report of Peace
                Corps/Colombia (Project No. 12-Eval-06), February 2013




Final Program Evaluation Report: Peace Corps/Colombia                                   32
Enclosed please find the agency‟s response to the recommendations made by the Inspector
General for Peace Corps/Colombia, as outlined in the Preliminary Report of the IG Evaluation
sent to the Agency on February 15, 2013.

The Inter-America and Pacific (IAP) Region, Office of Safety and Security and Office of Health
Services concur with 10 of 10 recommendations. Post has addressed and provided supporting
documentation for all recommendations.

The Region will continue to work with Post and the departments identified in the Preliminary
Report to ensure closure of these recommendations by the dates included within for outstanding
recommendations.

Recommendation 1
That the regional Peace Corps safety and security officer and the post’s safety and security
coordinator, in collaboration with the U.S. Embassy’s security personnel, assess security
conditions along Colombia’s Caribbean coast and define the geographic boundary within
which the Peace Corps can develop new sites and safely operate outside of major urban
areas.

        Concur
        IAP Region and Peace Corps (PC) Colombia (also referred to as post) have a continued
        commitment to diversifying site placements in coordination with the Embassy. As
        indicated in the U.S. Embassy Regional Security Officer‟s (RSO) “Decision Memo
        Atlantico”, Peace Corps personnel collaborated closely with the RSO to reassess security
        conditions along the current program region of the Caribbean coast. The RSO who held
        the same position in Colombia at the time of Peace Corps‟ re-entry, based his favorable
        recommendation that Peace Corps be approved to operate in 11 new sites on two rigorous
        security assessments of the Atlantico Department in 2011 and 2012. While the current US
        Ambassador to Colombia has declined to approve Volunteer placement in the new sites
        that the RSO identified, PC Colombia will engage the new Ambassador in a conversation
        on the issue at such time as one is appointed.

        Documents Submitted:
           Decision Memo Atlantico
           Strategic Plan Summary Excerpt from FY13-15 IPBS Submission
           Strategic Plan Summary Excerpt from FY14-15 IPBS submission

        Status and Timeline for Completion: April 1, 2013

Recommendation 2
That the post develops a strategy to mitigate, and help Volunteers better manage, stressors
connected to their service, including personal safety, healthy diets, sexual harassment and
other stressors.




Final Program Evaluation Report: Peace Corps/Colombia                                          33
         Concur
         Post has carefully considered the struggles that CII-3 14 Volunteers experienced and which
         provided the basis for this recommendation. Post would like to emphasize the fact that at
         the time of the IG evaluation, there was only one group of PCVs in country who were
         entering their 8th month of service and who responded to the All Volunteer Survey during
         their 5th to 8th month of service. The 8 th month point is an important time in the
         Volunteers‟ service as they are just coming out of the low point of the adjustment curve
         where they are likely to have the largest amount of adjustment issues. Compounding this
         is the fact that they did not have experienced two-year Volunteers who could have
         provided mentoring and advice. In the time leading up to the IG evaluation as well as
         during and following the evaluation, post has been developing a comprehensive strategy
         to help Volunteers mitigate the Colombia- specific stressors that led to the findings
         discussed in the evaluation report. This strategy used the results of Volunteer
         evaluations, staff site visits to Volunteers (including CD, DPT and P&T staff), the IG
         evaluation, VAC meetings, informal conversations with Volunteers, internal Volunteer
         satisfaction surveys and the Annual Volunteer Survey as reference resources.

         The strategy includes the following components:

         1)   Changes to the COTE and overall 27 month Training Continuum
         2)   Peer Support Network
         3)   Changes to Language Training
         4)   Host Family support
         5)   Arrival of new Safety and Security Coordinator

         Each of these components is discussed in detail below:

         Changes to COTE
         Prior to the IG evaluation, changes in the Calendar of Training Events (COTE) for CII-
         415 were already being contemplated. What prompted the changes under consideration
         were observations and feedback from the first group of regular two-year Peace Corps
         Volunteers to serve in Colombia since re-entry and who had arrived in October 2011.
         Many of these changes were made to help Volunteers better manage stressors related to
         their service. Building upon the Peace Corps sessions on resiliency, post designed a
         “Resiliency Series” weekly session with Trainees to discuss the many components of
         adjustment. As a result, Trainees were able to discuss stressors they would likely
         encounter and began to develop strategies for dealing with stressors typically associated
         with service.




14
   CII-3 refers to the group of Peace Corps Volunteers that arrived in October 2011. This group was the first cohort
of Peace Corps Volunteers serving for 27 months to arrive in Colombia since Peace Corps re-entry in 2010. CII-4
refers to the second cohort of Volunteers with 27 month service duration, which arrived in August 2012. CII-5 will
arrive in August 2013.
15
   CII-4 arrived in August 2012.


Final Program Evaluation Report: Peace Corps/Colombia                                                              34
        At the March 2013 reconnect IST for CII-4, post presented the second of three Peace
        Corps Resiliency trainings. The third will be facilitated at the mid-service IST in
        November, 2013. Finally, staff was trained in supporting Volunteer Resiliency during a
        staff retreat in January, 2013.

        The Director of Programming and Training (DPT) and Peace Corps Medical Officer
        (PCMO) designed and delivered a session on how to advocate for yourself appropriately
        in the cultural context giving Volunteers more tools to manage the additional stressors of
        situations such as host families asking for loans, unwanted advances, etc.

        In the coming year, the DPT, Safety and Security Coordinator (SSC) and PCMO will
        work together to design or strengthen sessions on maintaining healthy diets, and dealing
        with sexual harassment in the Colombian context. Finally, post leadership has worked
        with the Volunteer Advisory Council (VAC) to support Volunteer led committees in
        Gender Equality and Women‟s Empowerment (GEWP) and Diversity.

        Peer Support Network
        In order to help Volunteers develop resiliency and respond to each others‟ needs, post has
        worked with Volunteers to formulate a strategy for a Peer Support Network. Deputy
        Associate Director of the Office of Health Services Brenda Goodman was supportive of
        the initiative in her recent trip. As a transition to a full functioning network of PCV
        Leaders, the Volunteers proposed establishing a support Hotline for which Volunteers
        will be selected and trained by May, 2013. This action is part of a multi-tiered strategy
        that post will be implementing in 2013. The strategy includes the following:
        1) Current Volunteers will apply for and be selected to serve and be trained as members
            of a “Peer Support Hotline” where they will be available to answer calls from other
            Volunteers to listen to and provide support. Peer Support Hotline members will
            provide their contact information to the Volunteers and respond when called upon.
        2) As the first two-year Volunteers reach their COS, those who have been chosen to
            extend as Peace Corps Volunteer Leaders (PCVLs) will be trained in Peer Support
            Network methodology. They will then act as the members of Post‟s Peer Support
            Network and the hotline is programmed to be phased out.
        3) Starting with CII-5 Trainees who arrive in August 2013, and as part of the COTE for
            PST, all Trainees will receive training on active listening and other peer support
            skills.

        This strategy supports the results of post‟s most recent AMCS as well as requests from
        Volunteers. Beginning in January, 2013, a select group of Volunteers met with the DPT,
        CD and PCMO and then worked together to develop the strategy. The initial members
        of the Hotline will be trained in May, 2013, while the PCVLs will be trained in
        December, 2013.

        Changes made to Language Training
        Additionally, Post has improved language training through an enhanced language training
        curriculum that incorporates more grammar, a point raised on pages 22-23 of the report.
        Also, all LCFs hired for the PST for CII-4 (August-November, 2012) were certified to



Final Program Evaluation Report: Peace Corps/Colombia                                            35
           administer the Language Proficiency Interview, which in turn enabled post to more
           precisely assess Trainee‟s progress. Additionally, internal evaluations of language
           training in the most recent PST that followed the IG evaluation (CII-4) showed Trainees
           were satisfied with their language training. Furthermore, the two trainees mentioned on
           page 23 who did not make the minimum Intermediate Medium level for swear-in, were
           sworn in under the condition that they receive tutoring and pass the minimum language
           level by their reconnect IST in March, 2013, their third month of service. Both
           Volunteers were tested at reconnect and made the Intermediate Medium level.

           Host Families
           In response to numerous Volunteer requests and after the IG evaluation, post revisited the
           standard agreement with host families to allow greater flexibility and meal options. While
           the changes made have led to an overall increase in PCV housing/living allowances, they
           have responded favorably to Volunteer diet and health needs, and appear to have
           contributed to the reduced number of complaints about host families since the changes
           went into effect. Finally, a survey conducted by the Host Family Coordinator at the
           reconnect IST for CII-4 16 shows high satisfaction with their host families.

           New Safety and Security Coordinator and Support for Dealing with Unwanted
           Attention
           Post‟s new SSC (began March 11, 2013) is highly experienced in safety and security
           training and in field support. She brings to the position perspectives on safety and
           harassment issues that we feel confident will strengthen Volunteer resiliency and coping
           capabilities. She came to Peace Corps from Security and Safety Unit of the United
           Nations in the Office of the High Commissioner for Human Rights in Colombia. Her
           resume reflects and highlights that background and experience. Additionally she
           completed United Nations on-line training on “Workplace Harassment, Sexual
           Harassment & Abuse of Authority”, and is the author of a 69 slide PowerPoint
           presentation on security issues related specifically to women. At mid-year she together
           with the Country Director (CD) will bring Volunteers together in sub-regional safety and
           security meetings to discuss and address their priority concerns. These combined annual
           SSC-CD led meetings are part of the improved strategy to deal with Volunteer stressors.

           Post is confident that the 2013 Volunteer Annual Volunteer Survey (AVS) feedback will
           corroborate the effectiveness of post‟s overall strategy to support Volunteers to advocate
           for themselves as well as to manage stress appropriately and effectively

           Documents Submitted:
                Host Family Contributions and Food Options
                CII-4 Pre-service Training Calendar of Training Events
                Agenda for Reconnect IST for CII-4
                Standard Host Family Agreement
                SSC Resume/ detail on experience outlined above


16
     CII-4 arrived in August 2012.


Final Program Evaluation Report: Peace Corps/Colombia                                               36
                SSC Cover Letter to PC/Colombia - detail on experience outlined above
                Peace Corps developed Resiliency sessions
                    o “Epic Journey” including:
                            Adjustment curve
                    o “Coping Strategies” including
                            Adjustment curve
                    o “The Year Ahead”
                Post developed resiliency series: Training materials for staff to support Volunteer
                resiliency


        Status and Timeline for Completion: April 1, 2013

Recommendation 3
That the Inter-America and the Pacific Operations regional director and the associate
director for Safety and Security assess the viability of the community integration approach
to Volunteer safety for urban sites in Colombia, and, if necessary, identify and implement
steps to strengthen its effectiveness.

        Concur
        Post implements Peace Corps Strategy for Volunteer Safety and Security, an integrated
        safety and security model which includes three concepts, one of which is integration, to
        support Volunteer safety. Challenges to urban site placements in Colombia are common
        to other Peace Corps posts with urban sites. Colombia‟s approach starts with a mandatory
        host family stay policy in big-city urban environments that lack dynamic and community-
        centered neighborhood life. In these big-city barrios, many Volunteers have not found
        opportunities to become engaged in community activities or develop relationships with
        neighbors and other community members. In PC Colombia‟s site placement structure, a
        healthy and inter-active host family relationship is an essential ingredient and starting
        point for successful community integration. Post uses the host family agreement, annual
        host family trainings and Volunteer site visits to facilitate the host family‟s and the
        Volunteer‟s understanding and appreciation of each other‟s cultural norms and values.

        Peace Corps‟ Strategy for Volunteer Safety and Security references example factors that
        improve Volunteer safety. Post is strong in all factor areas mentioned in the strategy, and
        is making further refinements to language training, supporting adherence to local
        customs, and engagement in community activities. Changes to language training are
        outlined in the response to Recommendation 2. Supporting adaption to local customs is
        an ongoing process based in part on the Volunteer‟s relationship with the host family.
        Other enhancements to support are outlined in the response to Recommendation 2 as
        changes to the COTE as well as the inception of the Peer Support Network. Finally, post
        is working toward supporting Volunteers to identify meaningful community activities
        outside of the framework of their main assignments.

        PC Colombia staff members have identified an increasing number of dynamic and
        committed non-profit organizations, foundations, and community-based associations


Final Program Evaluation Report: Peace Corps/Colombia                                            37
        serving the poor and disadvantaged. These contacts and alliances have opened up
        opportunities for Volunteers to become more involved in meaningful community
        activities beyond the framework of their main assignments. From Volunteer site visits
        and in-service trainings staff has learned that this “secondary activity” type involvement
        is contributing significantly to Volunteer service satisfaction, with Volunteers conveying
        that they have become effectively engaged in important aspects of community life, even
        if it is at times beyond their immediate neighborhood.

        We believe this is a developing best practice to address Volunteer challenges to
        community integration in large urban environments similar to those PC/Colombia
        Volunteers are facing. So much so that the Volunteers themselves formed a special
        committee in January 2013 to develop an inventory of such organizations in Cartagena,
        Barranquilla and Santa Marta to provide fellow Volunteers opportunities for intensive
        and highly motivating collaboration with disadvantaged target groups. The committee has
        provided Volunteers with an electronic version of Organization Profiles that have been
        completed (attached below as a Document Submitted) and that are being continually
        added as the inventory is updated. The Organization Profiles are accessible on the
        Volunteer SharePoint, and a hardcopy binder of the same is accessible for reference in
        the PC Office Volunteer Lounge.

        Additionally, since comfort in communicating in the local language goes a long way in
        facilitating integration in the different aspects of community life, post has taken steps to
        improve the training side of language learning. These steps are noted in greater detail in
        the comments regarding language training improvements in response to Recommendation
        2.

        Post has also been consistent in communicating to invitees, Trainees and Volunteers in-
        service the challenges to successful community integration. The support team at post
        pursues opportunities to discuss with Trainees and Volunteers, individually during
        Trainee one-on-one sessions and Volunteer site visits as well as at group events, the
        various coping and resiliency strategies that may be appropriate and effective in their
        specific cases.

        Post is reviewing the “PACA-Urban” session which was released by OPATS in February
        2013 to determine how to incorporate in the PST for group CII-5 which will begin in
        August 2013. This session considers appropriate application of and trains participants in
        four key PACA tools (community map, seasonal calendar, daily activity schedule, and
        priority ranking matrix) in urban or peri-urban communities.

        Finally, an important component contributing to the Volunteers‟ potential integration in
        the communities where they live and work is the initial development and selection of
        their assigned sites. For this process, team members at post are guided by and apply the
        criteria and procedures outlined in Peace Corps Colombia‟s “Safety and Security Site
        Selection Inspection Guide” (one of the documents submitted below). This is
        acknowledged in the evaluation report: “. . . all sites in these three cities {Cartagena,
        Barranquilla, and Santa Marta} were identified, assessed and developed in a rigorous



Final Program Evaluation Report: Peace Corps/Colombia                                               38
        manner, in accordance with the post‟s site development criteria and procedures.” Since
        August 2012 further enhancements have been made to: Safety and Security Site Selection
        Inspection Guide, Volunteer Family Evaluation, Evaluacion por las familias anfitrionas,
        HOST FAMILIES brochure, Host Family Criteria-SP, Manual_de_Familias. Additional
        documents have been developed including: Organizational Profiles and Peace Corps’
        PACA-Urban session.

        Documents Submitted:
             Safety and Security Site Selection Inspection Guide – PC/Colombia
             Organization Profiles
             Volunteer Family Evaluation at 6 months
             “Evaluación por las familias anfitrionas” (The template for the Host Family’s
             evaluation of the Trainee/Volunteer home-stay experience)
             HOST FAMILIES (A brochure handout describing Peace Corps and the Host
             Family experience)
             Host Family Criteria-SP (the Spanish version of criteria used in the process of
             selecting host families)
             “Manual_de_Familias_Febrero 2013” (Post’s manual to guide host families
             regarding the background and mission of the Peace Corps as well as outlining
             their responsibilities and PC/Colombia’s expectations of their role.)
             Peace Corps’ PACA-Urban session

        Status and Timeline for Completion: April 1, 2013

Recommendation 4
That the country director and Inter-America and the Pacific Operations regional director
at headquarters identify a host family policy for Colombia that results in Volunteers
having more successful host family relationships.

        Concur
        As Peace Corps has re-started our program in Colombia, the mandatory Host Family
        Policy serves to protect our Volunteers. Developing relationships with host families and
        communities presents learning opportunities. Post has been making ongoing adjustments,
        which post elaborated further during the evaluator‟s visit. Since the IG visit the following
        changes have been implemented:

                1) Volunteers must stay with their first assigned host family for at least three
                months before changes will be considered (safety and security concerns
                excepted). This change in the policy was based on conversations between post
                staff and Volunteers and was implemented in August, 2012. Volunteers
                interviewed by IG had been working under and were commenting on the previous
                policy.




Final Program Evaluation Report: Peace Corps/Colombia                                             39
                2) The food policy was changed to give Volunteers more flexibility in
                determining their meal options, a factor identified as a considerable point of stress
                for Volunteers. This policy change was implemented in October, 2012.

                3) The Host Family Coordinator, in addition to providing initial trainings of the
                families selected, has already begun conducting follow up meetings with families
                at the one-year mark. The purpose of these meetings is to maintain strong
                communication, reinforce the components of the host family experience, and
                provide a forum to receive feedback and troubleshoot possible problems. These
                yearly meetings that began in January 2013 are a strategy also included in Post‟s
                IPBS for 2014-2015.

                4) Volunteers and Host Families will be providing a six-month evaluation of the
                joint experience. Evaluations will also take place at the year and two year marks
                of Volunteer service. This will apply to all families, including families affected
                by Volunteer changes of host families.

                5) The Host Family Coordinator has developed user friendly handbooks for both
                Volunteers and Host Families. These will be distributed to Host Families and
                Volunteers as part of the site selection process for the CII-5 training cycle. The
                distribution will take place September-November, 2013.


        Documents Submitted:
             Host Family Policy - excerpt from Volunteer Handbook
             Volunteer Family Evaluation at 6 months
             “Evaluación por las familias anfitrionas” (The template for the Host Family’s
             evaluation of the Trainee/Volunteer home-stay experience)
             HOST FAMILIES (A brochure handout describing Peace Corps and the Host
             Family experience)
             Host Family Criteria-SP (the Spanish version of criteria used in the process of
             selecting host families)
             “Manual_de_Familias_Febrero 2013” (Post’s manual to guide host families
             regarding the background and mission of the Peace Corps as well as outlining
             their responsibilities and PC/Colombia’s expectations of their role.)
             Host Family Contributions and Food Options

        Status and Timeline for Completion: April 1, 2013

Recommendation 5
That the country director and the Inter-America and the Pacific Operations regional
director at headquarters assess the sufficiency of the current office space and secure
additional office space, if needed.




Final Program Evaluation Report: Peace Corps/Colombia                                                40
        Concur
        The country director will provide the IAP Regional Director updated information
        regarding the current distribution of office space. Post now has a full complement of core
        staff, and has made important changes in space distribution to resolve a confidentiality
        issue in the Medical Unit and to provide appropriate lounge and work space for
        Volunteers when at the office. These changes, however, have eliminated a work area for
        training staff, a need that must be addressed temporarily or permanently before the next
        PST cycle that begins in August 2013.

        Inter-America and Pacific Region Chief Administrative Officer (CAO) visited post in
        February 2013 and this provided the opportunity for an assessment of the current office
        space. Both the CAO and the RD are in concurrence that additional space in needed. Post
        is implementing the proposed Action Plan to acquire additional office space.

        Documents submitted:
             PC Colombia Action Plan for Acquiring Additional Office Space

        Status and Timeline for Completion: April 1, 2013

Recommendation 6
That the Peace Corps medical officer complete the medical evacuation plan.

        Concur
        After the field work of the program evaluation was conducted, the Country Director and
        Peace Corps Medical Officer coordinated the completion of post‟s Medical Evacuation
        Plan. The plan was submitted to OHS for review.

        Documents submitted:
             PC Colombia Medical Evacuation Plan

        Status and Timeline for Completion: March 12, 2013

Recommendation 7
That the Office of Health Services review the post’s medical evacuation plan to ensure its
completeness.

        Concur
        The Office of Health Services has reviewed post‟s Medical Evacuation Plan. The very
        complete Post Specific Medical Evacuation Plan is approved for implementation.

        Documents submitted:
             PC Colombia Medical Evacuation Plan (submitted under Recommendation 6)

        Status and Timeline for Completion: March 20, 2013




Final Program Evaluation Report: Peace Corps/Colombia                                           41
Recommendation 8
That the director of programming and training set expectations regarding the timeliness of
staff feedback to Volunteers on their work reports and ensure that staff uses the Volunteer
Reporting Tool to support Volunteers and communicate project results.

        Concur
        Post has implemented a policy where the project team that consists of two PTS‟s and one
        PM divide the responsibility of responding in writing to Volunteer reports as opposed to
        the PM being the sole person responsible for this task. They will rotate the Volunteers
        they respond to and they have one month to respond upon receipt of the last Volunteer
        report during the cycle. The policy is attached, was communicated to Volunteers via bi-
        weekly newsletter and will be added to the Volunteer handbook‟s latest version set to be
        published August, 2013. In addition to the written feedback for the VRT, the PM and
        two PTSs provide feedback to Volunteers in various ways. Through site visits, formal
        meetings, informal meetings, office visits by Volunteers, phone calls, emails and surveys,
        Volunteers have made use of these multiple opportunities to interact and receive feedback
        from their PM and PTSs.

        Documents submitted:
             Peace Corps Colombia Volunteer Reporting Tool Feedback Policy
             Bi-Weekly Newsletter of Feb 22, 2013

        Status and Timeline for Completion: February 22, 2013

Recommendation 9
That the program manager become more familiar with the feedback functionality of the
Volunteer Reporting Tool and provide timely and substantive feedback to Volunteers.

        Concur
        All project support staff were trained in the VRT via web-ex specifically conducted for
        post by Kevin Cropper from OCIO. There was also a follow up training with the DPT so
        that by March 1st (memo attached), all were trained in the feedback functionality of the
        VRT.

        Documents submitted:
             VRF Memo
             VRT training
             Sample of PM feedback
             VRT User Guide

        Status and Timeline for Completion: March 1, 2013

Recommendation 10
That the director of programming and training and the training manager make necessary
adjustments to training so that Volunteers in Colombia clearly understand their role as



Final Program Evaluation Report: Peace Corps/Colombia                                           42
Volunteers, including the requirement to demonstrate respect for Colombians and their
culture as well as sufficient adaptability and self-sufficiency.

        Concur
        As explained above in the response to Recommendation 2, the creation of the Resiliency
        Series was in response to observations and feedback of Volunteers not having the basic
        adaptation skills nor understanding their role as Volunteers in Colombia. Considerable
        time was spent in the PST CII-4 discussing the role of a Volunteer in Colombia, not only
        in the Resiliency Series, but also with the Peace Corps developed sessions such as “Role
        of Volunteer in Development,” “Peace Corps‟ approach to Development,” and
        “Understanding my work partners.”

        Finally, at the time of the IG evaluation, there was only one group of Volunteers in
        country who were at their 8 month point of their service. Essentially they had no peer
        role models to look up to and learn from. It should not be underestimated that by having
        experienced Volunteers in country, both with Volunteers now in their second year (who
        were the focus group for this report) as well as excellent Response Volunteers, the group
        that arrived in August 2012 have peers to look to for leadership and support in dealing
        with adjustment issues.

        Documents submitted:
             CII-4 Pre-Service Training Calendar of Training Events
             Post developed “Resiliency Series”
             Peace Corps developed Resiliency sessions
                 o “Epic Journey” including:
                         Adjustment curve
                 o “Coping Strategies” including
                         Adjustment curve
                 o “The Year Ahead”
             Peace Corps sessions “Approach to Development,” “Role of the Volunteer in
             Development,” and “Understanding my Work Partners”

        Status and Timeline for Completion: April 1, 2013




Final Program Evaluation Report: Peace Corps/Colombia                                           43
                           APPENDIX C: OIG COMMENTS
Management concurred with all 10 recommendations. We closed eight recommendations (3-10)
based on a review of corrective actions and supporting documentation. Recommendations 1 and
2 will remain open pending confirmation from the chief compliance officer that the
documentation identified in management‟s response and in our analysis has been received.

In its response, management described actions it is taking or intends to take to address the issues
that prompted each of our recommendations. We wish to note that in closing recommendations,
we are not certifying that the agency has taken these actions or that we have reviewed their
effect. Certifying compliance and verifying effectiveness are management‟s responsibilities.

We will consider closing recommendation 1 following receipt of documentation that indicates
Peace Corps/Colombia has obtained approval to develop new sites outside of major urban areas.
Please respond with documentation to close recommendation 2 within 90 days of receipt of this
memorandum.

We wish to acknowledge the comprehensive manner in which the post and region responded to
the report and our recommendations. Post has enhanced its site selection criteria; improved
language, cross-culture and other areas of Volunteer training; identified community-based
organizations that give Volunteers additional opportunities to contribute in their communities;
and improved its processes and policies to support more successful host family experiences. We
also commend the post for the detailed and thorough documentation it provided in response to all
10 report recommendations.

        Recommendation 1
        That the regional Peace Corps safety and security officer and the post’s safety and security
        coordinator, in collaboration with the U.S. Embassy’s security personnel, assess security conditions
        along Colombia’s Caribbean coast and define the geographic boundary within which the Peace
        Corps can develop new sites and safely operate outside of major urban areas.

        Concur
        IAP Region and Peace Corps (PC) Colombia (also referred to as post) have a continued commitment to
        diversifying site placements in coordination with the Embassy. As indicated in the U.S. Embassy Regional
        Security Officer‟s (RSO) “Decision Memo Atlantico”, Peace Corps personnel collaborated closely with the
        RSO to reassess security conditions along the current program region of the Caribbean coast. The RSO who
        held the same position in Colombia at the time of Peace Corps‟ re-entry, based his favorable
        recommendation that Peace Corps be approved to operate in 11 new sites on two rigorous security
        assessments of the Atlantico Department in 2011 and 2012. While the current US Ambassador to Colombia
        has declined to approve Volunteer placement in the new sites that the RSO identified, PC Colombia will
        engage the new Ambassador in a conversation on the issue at such time as one is appointed.

        Documents Submitted:
           Decision Memo Atlantico
           Strategic Plan Summary Excerpt from FY13-15 IPBS Submission
           Strategic Plan Summary Excerpt from FY14-15 IPBS submission

        Status and Timeline for Completion: April 1, 2013



Final Program Evaluation Report: Peace Corps/Colombia                                                          44
OIG analysis: In its response to the recommendation the agency indicated that it would engage
the new Ambassador on approval of new site locations. Recommendation 1 will remain open
until post is able to obtain approval from the U.S. Embassy to develop new sites for Volunteers
outside of major urban areas along the Caribbean coast.

        Recommendation 2
        That the post develops a strategy to mitigate, and help Volunteers better manage, stressors connected
        to their service, including personal safety, healthy diets, sexual harassment and other stressors.

        Concur
        Post has carefully considered the struggles that CII-3 Volunteers experienced and which provided the basis
        for this recommendation. Post would like to emphasize the fact that at the time of the IG evaluation, there
        was only one group of PCVs in country who were entering their 8th month of service and who responded to
        the All Volunteer Survey during their 5th to 8th month of service. The 8th month point is an important time
        in the Volunteers‟ service as they are just coming out of the low point of the adjustment curve where they
        are likely to have the largest amount of adjustment issues. Compounding this is the fact that they did not
        have experienced two-year Volunteers who could have provided mentoring and advice. In the time leading
        up to the IG evaluation as well as during and following the evaluation, post has been developing a
        comprehensive strategy to help Volunteers mitigate the Colombia- specific stressors that led to the findings
        discussed in the evaluation report. This strategy used the results of Volunteer evaluations, staff site visits to
        Volunteers (including CD, DPT and P&T staff), the IG evaluation, VAC meetings, informal conversations
        with Volunteers, internal Volunteer satisfaction surveys and the Annual Volunteer Survey as reference
        resources.

        The strategy includes the following components:

        6)    Changes to the COTE and overall 27 month Training Continuum
        7)    Peer Support Network
        8)    Changes to Language Training
        9)    Host Family support
        10)   Arrival of new Safety and Security Coordinator

OIG analysis: Please provide documentation that the Peer Support Network described in the
agency‟s response has started to function. This could include evidence that Volunteers have been
selected and trained to serve as members of the “Peer Support Hotline.”




Final Program Evaluation Report: Peace Corps/Colombia                                                                 45
    APPENDIX D: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT
PROGRAM                          This program evaluation was conducted by Senior
EVALUATION                       Evaluator Jerry Black under the direction of Assistant
                                 Inspector General for Evaluations Jim O‟Keefe, with
COMPLETION
                                 assistance from Evaluation Apprentice Tim Shaw.




                                 Jim O‟Keefe
                                 Assistant Inspector General for Evaluations

OIG CONTACT                      Following issuance of the final report, a stakeholder
                                 satisfaction survey will be distributed. If you wish to
                                 comment on the quality or usefulness of this report to help
                                 us improve our products, please email Assistant Inspector
                                 General for Evaluations Jim O‟Keefe at
                                 jokeefe@peacecorps.gov, or call 202.692.2904.




Final Program Evaluation Report: Peace Corps/Colombia                                          46
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                          Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                www.peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 www.peacecorps.gov/OIG
            Twitter:               www.twitter.com/PCOIG
